<html>
<title> - SHRINKING THE SKILLS GAP: SOLUTIONS TO THE SMALL BUSINESS WORKFORCE SHORTAGE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
  SHRINKING THE SKILLS GAP: SOLUTIONS TO THE SMALL BUSINESS WORKFORCE 
                                SHORTAGE

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON ECONOMIC GROWTH, TAX, AND CAPITAL ACCESS

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             JUNE 14, 2018

                               __________

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               

            Small Business Committee Document Number 115-077
             Available via the GPO Website: www.govinfo.gov
             
             
             
             
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
30-502                  WASHINGTON : 2019                   
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
                           JOHN CURTIS, Utah
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                     
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Dave Brat...................................................     1
Hon. Dwight Evans................................................     2

                               WITNESSES

Mr. Todd Hitt, CEO, Kiddar Capital, Falls Church, VA.............     4
Mr. Kelly McCreight, President and CEO, Hamilton-Ryker IT 
  Solutions, Nashville, TN, testifying on behalf of the American 
  Staffing Association...........................................     6
Ms. Angela Dine Schmeisser, President and CEO, St. Marys Foundry, 
  Inc., St. Marys, OH............................................     8
Mr. Bryant Greene, Administrator, Always Best Care Senior 
  Services, Philadelphia, PA.....................................    10

                                APPENDIX

Prepared Statements:
    Mr. Todd Hitt, CEO, Kiddar Capital, Falls Church, VA.........    23
    Mr. Kelly McCreight, President and CEO, Hamilton-Ryker IT 
      Solutions, Nashville, TN, testifying on behalf of the 
      American Staffing Association..............................    36
    Ms. Angela Dine Schmeisser, President and CEO, St. Marys 
      Foundry, Inc., St. Marys, OH...............................    41
    Mr. Bryant Greene, Administrator, Always Best Care Senior 
      Services, Philadelphia, PA.................................    50
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    CompTIA......................................................    53
    WIPP - Women Impacting Public Policy.........................    57


  SHRINKING THE SKILLS GAP: SOLUTIONS TO THE SMALL BUSINESS WORKFORCE 
                                SHORTAGE

                              ----------                              


                        THURSDAY, JUNE 14, 2018

                  House of Representatives,
               Committee on Small Business,
                   Subcommittee on Economic Growth,
                                   Tax, and Capital Access,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m. in 
Room 2360, Rayburn House Office Building, Hon. Dave Brat 
[chairman of the Subcommittee] presiding.
    Present: Representatives Brat, Chabot, Norman, Evans, and 
Murphy.
    Chairman BRAT. Good morning. I would like to call this 
hearing to order.
    Welcome to our C-SPAN friends in the back of the room. The 
cameras are rolling, so everyone be on your best behavior. And 
I call this hearing to order right now.
    We are waiting for some of our colleagues to get here. I 
think they are on their way, but I do want to--I usually don't 
start off by calling attention to the title of our hearing 
today, but I think it is one of the most important issues 
facing the country. And so today we are having a hearing on 
shrinking the skills gap: solutions to the small business 
workforce shortage. And we have got a great panel before us 
this morning, and so I would like to welcome everybody. And 
let's get underway.
    The American economy is creating jobs at historic rates. 
Over 1 million jobs have been created so far this year. The 
unemployment rate is at an 18-year low of 3.8 percent, and 
there are now more vacant jobs than unemployed job seekers in 
the United Stares. That is the good news. On June 1, there was 
even an article in The New York Times with the title, ``We Ran 
Out of Words to Describe How Good the Jobs Numbers Are.''
    Small business optimism is at an all-time high. Tax reform 
has created an opportunity for small businesses to hire that 
extra employee or make that needed expansion or renovation.
    The problems is when there are 6.6 million job vacancies, 
small businesses have a particularly difficult time finding and 
retaining qualified employees. According to the National 
Federation of Independent Business, 57 percent of surveyed 
small business owners either hired workers or were trying to 
hire workers in the last month. However, 88 percent of those 
hiring or trying to hire reported few to no qualified 
applicants for vacant positions.
    This raises a significant secondary issue. According to the 
American Enterprise Institute, there are 7 million men 
currently missing from the workforce. The female labor force 
participation rate has declined by 6 percent since 2000. Also, 
one in seven 16- to 24-year-olds are neither in school nor 
working, which could have serious economic implications for 
decades to come. These groups are not even included in our 
labor market. We do not want to forget them either.
    Our Committee has held several hearings in the past few 
months that have examined the workforce shortage and the skills 
gap. This morning we have brought together an excellent panel 
to learn more about how to solve this problem. Through today's 
hearing, we hope to hear ideas that will ensure America's small 
businesses have a workforce with the right skill set to propel 
the American economy forward.
    To be clear, this hearing is not about a few tweaks here 
and there. These distortions in the labor market affect every 
State, every congressional district, and the nearly 30 million 
small businesses in our Nation.
    I thank you all for being here this morning, and I yield to 
the Ranking Member for his opening remarks.
    Mr. Evans.
    Mr. EVANS. Good morning. And thank you, Mr. Chairman.
    As our Nation strives to regain its global competitiveness, 
it is critical that companies of all sizes have access to the 
skilled workforce they need to succeed. In fact, in the next 
decade, nearly two-thirds of all job vacancies will require 
some postsecondary education. And this will only increase as 
the pace of technology changes accelerate. Small business 
creates 70 percent of all new jobs, and it is essential that 
these workers have sufficient technical skills.
    Analyzing the United States workforce reveals two areas of 
concern: an existing skills gap among workers and a large 
increase in the retirement of baby boomers within the next 
decade. Both emphasize the importance of transforming the 
education process and requirements for future workers.
    For businesses, this reality has dire consequences. If we 
are unable to meet the demand for trained workers, it will 
weaken our ability to compete globally. The manufacturing, 
technology, and healthcare sectors in particular face 
challenging obstacles to this deficiency.
    And what is essentially troubling is that there are fewer 
workers seeking jobs, compounding the problems further. With 
the unemployment rate at a low of 3.8 percent, small businesses 
will be at even more of a disadvantage as they compete for any 
workers, especially those with training.
    This begs the question, how do we address this skills gap 
now to get people qualified for these jobs?
    Targeted postsecondary education, such as skill certificate 
systems, can assist small firms in securing qualified employees 
to help them grow. Novel partnerships among industry, 
educators, and policymakers are also playing a role by 
preparing the workforce and incentivize school completion.
    Too many American workers and small businesses have been 
left behind. That is why creating incentives for training, 
certification, and apprenticeship programs leads to a stronger 
workforce, better learning, higher productivity. Most 
important, we must change the stigma surrounding these jobs and 
refocus the discussion for our future generation as they need 
it.
    Efforts such as these we will discuss today are critical to 
our economic recovery. By preparing America's workforce to 
compete in a global marketplace, firms will be better 
positioned to succeed, paving the way for stronger growth. 
Prudent investments in training and education will also reduce 
the unemployment rate, leading to higher consumer confidence 
and demand.
    This is exactly what our Nation needs now that we look to 
turn the corner, create more jobs, ensure that America's small 
businesses are prepared to move our economy forward.
    I look forward to today's hearing, and thank the witnesses 
for being here.
    Thank you, Mr. Chairman, for bringing this very important 
panel together, and I yield back the balance of my time.
    Chairman BRAT. Thank you, Dwight.
    If Committee members have an opening statement prepared, I 
ask they be submitted for the record.
    I would like to take a moment to explain the timing lights 
for each of you today. You will each have 5 minutes to deliver 
your testimony. The light will start out green. When you have 1 
minute remaining, the light will turn yellow. Finally, at the 
end of your 5 minutes, it will turn red. I ask you try to 
adhere somewhat to that, but we are flexible. I think we have 
got a pretty flexible hearing today with plenty of time to 
spare.
    And so with that, let's get to introducing our first 
witness. Our first witness today is Mr. Todd Hitt, CEO of 
Kiddar Capital in Falls Church, Virginia. Kiddar Capital is a 
global asset management firm that manages investments and 
private equity, real estate, infrastructure, and hospitality. 
They have expertise on labor markets across all of these 
sectors and are a good leadoff to explain what is going on in 
the real world this morning.
    Mr. Hitt frequently speaks across the country and writes 
about how to improve the American economy, create opportunities 
for the middle class, and is a bold, innovative voice on 
navigating America's greatest economic challenges.
    And so we welcome you today and thank you for joining us, 
Mr. Hitt, and you may begin.

 STATEMENT OF TODD HITT, CEO, KIDDAR CAPITAL; KELLY MCCREIGHT, 
  PRESIDENT AND CEO, HAMILTON-RYKER IT SOLUTIONS; ANGELA DINE 
  SCHMEISSER, PRESIDENT AND CEO, ST. MARYS FOUNDRY, INC.; AND 
 BRYANT GREENE, ADMINISTRATOR, ALWAYS BEST CARE SENIOR SERVICES

                     STATEMENT OF TODD HITT

    Mr. HITT. Well, good morning. Chairman Brat, Ranking Member 
Evans, I really appreciate the opportunity to be here this 
morning and talk with you about this critical problem our 
country is facing.
    My name is Todd Hitt. I am the founder and CEO of Kiddar 
Capital, a private equity firm based in the Washington, D.C., 
area. Kiddar manages a wide variety of assets across 
established and emerging asset classes, including venture real 
estate, construction, and energy.
    Through my work, it has become clear to me that the United 
States is facing a critical labor shortage that could well 
topple the economy if we don't fix it. There are pockets of the 
country that have few jobs and too many workers, but there are 
far more with many jobs and too few workers.
    Labor shortages mean small businesses can expand and they 
constrain economic growth in a visceral way. Turning down work 
is the last thing an entrepreneur and business owner wants to 
do, but when you don't have the labor you need, it is one of 
the only options you have.
    My goal today is to offer practical solutions to address 
our labor shortage. First, let me briefly illustrate the scope 
of the problem we face.
    In April, there were 6.7 million jobs open in the United 
States, and while the unemployment number doesn't include 
workers who have simply dropped out of the workforce, it was 
the first time since 2000 that the number of jobs open exceeded 
the number of workers. I site many of these stories in my 
written testimony.
    The firms Kiddar Capital has worked with have lived the 
labor shortage that is definitely an issue that the CEOs and 
investors I know talk about constantly. In my written 
testimony, I have included a graphic that shows the ratio of 
unemployed individuals to jobs available. Two years after the 
Great Recession was over, there were four unemployed workers 
for every U.S. job open. Today, it is less than a one-to-one 
ratio.
    The worker shortage affects all regions of the country. In 
my written testimony, I have also included graphics showing the 
divergence between the prime age population and the number of 
workers in large cities and midsize cities and suburbs and in 
rural America. Everywhere there is a gap between jobs and the 
prime age working population.
    As I noted above, these shortages hit small businesses the 
hardest. As candidates for office, you are familiar with the 
issue of name ID. Well-known candidates have an instant 
advantage. The same principle applies to hiring workers. When 
you are smaller, a potential employee is less likely to be 
familiar with your reputation and your name. Many people 
perceive working for a smaller business, especially a startup 
or a riskier--a far riskier challenge, of course. Main Street 
employers also have a harder time absorbing the wage inflation 
that goes along with the labor shortage.
    There are economists who will argue today's shortage could 
be solved if employers simply offer higher wages, but higher 
wages can't attract workers who aren't there, and more often 
than not, higher wages impact pricing and make the businesses' 
thesis untenable.
    There are several factors that contribute to the nation's 
labor shortage. Today, I will address one: labor mobility. This 
is one we don't hear enough about, I think.
    If you remember one statistic from my remarks today, I want 
it to be this: In 2017, fewer Americans moved than in any year 
in at least the last 50 years. The U.S. mover rate is now 11 
percent. That is an historic low, and it is half of what it was 
just 30 years ago. Instead of moving in search of a new job, 
today's out-of-work Americans are more likely to drop out of 
the workforce.
    The University of California at Berkeley's Enrico Moretti 
even has connected to the client and labor mobility to 
increased income equality. Family ties, housing costs, and 
level of education all impact a family's willingness to move, 
but I believe if we make it easier for them to move, Americans 
will get moving again.
    Businesses clearly have a role when it comes to encouraging 
mobility. We must attract talent with fair wages, family 
sustaining benefits, and the promise of a stable job, but I 
believe lawmakers need to work in tandem with American job 
creators to solve this problem.
    The first solution is to reinstitute the tax deduction 
individuals can receive for work-related moving expenses. I was 
a vocal supporter of the Tax Cuts and Jobs Act, but I believe 
doing away with that deduction was a mistake.
    As you know, when you tax something, you generally get less 
of it. When you incentivize it, you get more. Mobility 
incentives will help unstick our workers.
    One way to pay for these grants is to let unemployed 
individuals collect their State and Federal unemployment 
benefits up front if they are using them to move to another 
location in order to take a job.
    The U.S. Labor Department executed a small scale mobility 
grant program in the 1970s. The Job Search and Relocation 
Assistance Program involved 40 different unemployment offices 
across several southern States. Different offices offered 
different types of assistance ranging from providing 
information about jobs to actually giving individuals grants to 
take jobs in other places.
    A 1981 analysis of the program found wages for those who 
relocated through the program were higher. Local, State, and 
Federal levels of government provide tax incentives to 
businesses to provide worker training. Similar incentives 
should be given to employers who spend capital to relocate 
workers. Very important issue.
    Differing rules for Federal programs like Medicaid and 
Supplemental Nutrition Assistance Program create a major 
barrier to keep people from moving. And while Section 8 rental 
housing vouchers promote mobility within metro areas, a long 
waiting list in most areas are a strong disincentive against 
relocation. High housing costs are a major reason families 
don't move to cities with robust job markets.
    I am running out of time here, Chairman. I maybe have 
another 40 seconds.
    Chairman BRAT. That is fine.
    Mr. HITT. High housing costs are a major reason families 
don't move to cities with robust job markets. In The Atlantic, 
last fall, Alana Semuels pointed out that states like Texas, 
which have less strict zoning laws, have high in-migration 
rates. Cities should loosen land use regulations.
    It is not only urban areas that struggle to provide housing 
for new workers. The Wall Street Journal's Shayndi Raice found 
that in Platte County, Nebraska, there are around 990 jobs 
available, but only a total of 65 homes for sale. Housing 
prices are rising so fast in Nebraska the State is considering 
incentives for homebuilders to build. Reducing occupational 
licensing regulations also will reduce disincentives for 
professionals to move.
    I want to thank you again for the opportunity to testify 
here this morning. The labor shortage and the lack of labor 
mobility should concern Republicans and Democrats alike. This 
is a nontribal issue. It is an issue we must tackle to increase 
growth rates and to improve income inequality.
    Thank you for your time and consideration today and for 
your service to our great country.
    Chairman BRAT. Thank you for your testimony, Mr. Hitt. It 
is good to have a nontribal win-win, and I think you hit the 
nail on the labor mobility piece. And so we will be coming back 
to you on the Q&A part.
    Next witness today is Kelly McCreight, president and CEO of 
Hamilton-Ryker IT Solutions in Nashville, Tennessee. Hamilton-
Ryker is an information technology staffing firm, and also 
provides businesses with recruiting, management consulting, and 
information technology solutions.
    Thank you for joining us today and for lending your 
expertise, Mr. McCreight, and you may begin. Thank you.

                  STATEMENT OF KELLY MCCREIGHT

    Mr. MCCREIGHT. Good morning, Chairman Brat, Ranking Member 
Evans, and other members of the Committee. Again, I am Kelly 
McCreight. I am the chief executive officer of Hamilton-Ryker, 
and I am also current Chairman of the American Staffing 
Association. It is my privilege to represent both organizations 
this morning.
    Founded in 1971, Hamilton-Ryker is a total workforce 
solution and industry leader for the provision of industrial, 
administrative, and information technology staffing, as well as 
recruiting, management consulting, and IT solutions. We are 
headquartered in Nashville, Tennessee. We have 35 locations 
across the U.S. For 45 years, we have helped thousands of 
people find great jobs in great careers, while providing our 
customers, many of which are small businesses, with a staffing 
solution concentrating on manufacturing, distribution, 
clerical, and skilled trade disciplines.
    The American Staffing Association is a national trade 
association that has been the voice of the U.S. staffing 
industry for more than 50 years, promoting the interests of the 
industry and flexible employment opportunities through legal 
and legislative advocacy, public relations, education, and the 
establishment of high standards of ethical conduct. The ASA 
strongly supports policies that help America's workers, and is 
working closely with the Department of Labor and other Federal 
agencies on the development of a new and expanded 
apprenticeship program.
    The staffing industry employs more than 3 million employees 
per day and more than 15 million each year. Staffing firms 
recruit and hire their own employees and assign them to 
businesses to assist in special work situations, such as 
employee absences, skill shortages, and seasonal workload, or 
to perform special assignments or projects. Employees work in 
virtually every skill level and job category, including 
industrial labor, office support, engineering, IT, legal, and 
accounting.
    Most everyone is aware of the latest reports highlighting 
the current situation in the workforce. Basically, there is 
more jobs than people. We see that firsthand at Hamilton-Ryker 
in almost all of our markets. We are in a lot of small towns in 
Tennessee, Mississippi, and Kentucky, as well as in larger 
cities like Houston and Nashville.
    With the economy at full employment, we are taking measures 
to upskill the existing workforce. For instance, by taking 
workers that may have a certain skill set and providing them 
training to allow them to be promoted or move into another 
position at a higher wage rate. Additionally, we have 
instituted soft skill orientations that address issues like 
conflict resolution, workplace violence, and even basic 
workplace practices, such as on time arrival to work, call-in 
procedures, and how to deal with differing workplace cultures.
    This morning, I wanted to highlight specific measures our 
company is taking in Tupelo, Mississippi, in order to assess 
skills and train workers for one of our manufacturing clients. 
Last year, our company partnered with IVR Train, a spin-off 
company from Tennessee Tech University that develops virtual 
reality training for manufacturers. For those of you that don't 
know, virtual reality is an interactive computer-generated 
experience taking place within a simulated environment that 
incorporates auditory, visual, and other types of sensory 
feedback.
    Current VR technology most commonly uses headsets or 
multiprojected environments, sometimes in combination with 
physical environments or props, to generate realistic images 
and other sensations that simulate a user's physical presence 
and a virtual or imaginary environment.
    In Tupelo, we specifically were interested in how VR could 
assist us in recruiting, testing, and training forklift 
drivers. We purchased a VR forklift and installed it in our 
office in early January. The VR forklift has eight assessments 
that test a variety of forklift skills from beginner to 
advanced. Prior to purchasing the VR forklift, we could only 
interview our applicants and then send them out to our client 
for testing on the actual machine. We are now better able to 
assess the applicants' skills using the VR technology, 
resulting in a 70 percent plus pass rate for our applicants 
versus less than 50 percent in 2017.
    This summer, we are implementing a training program for 
those workers who may have had previous forklift experience but 
need to upgrade their skills before being placed at client 
sites.
    I have included a short video that will give the Committee 
a better understanding of how the VR forklift operates. This is 
just one of the examples our company and other members of the 
ASA are doing to train workers for tomorrow's jobs and help 
close those skills gap.
    Thank you for your time.
    So I don't believe there is any sound, but this is the 
actual machine in our office. And so it fits on about a 12-by-
12 space. And he is putting on the glasses and he is going 
through one of the test assessments.
    [Video shown.]
    Mr. MCCREIGHT. So the major cost for this is the computer, 
obviously, and the video card that is inside there. So the 
costs are $15- to $20,000, which includes a simulator and the 
computer equipment. We have eight assessments that we can test.
    Chairman BRAT. How is he doing?
    Mr. MCCREIGHT. He has passed. I included the one that 
passed.
    So that is--I wanted to show you that is what he is 
looking--that is what it looks like. So the first assessment is 
go through the cones and can he turn the forklift, and then it 
gets progressively harder each time, including going into a 
trailer, picking up a pallet, backing it out. So if they pass 
the first three, then we will send them on for testing on the 
physical machine.
    So thank you.
    Chairman BRAT. All right. Super. Thanks for your testimony, 
Mr. McCreight.
    Our next witness is Angela Dine Schmeisser. Ms. Dine 
Schmeisser is president and CEO of St. Marys Foundry, Inc., an 
iron casting producer in St. Marys, Ohio. Under her leadership, 
St. Marys Foundry recently established the St. Marys Foundry 
Technical Institute, which encourages employees to set goals 
and take classes outside of their department specialty to be 
well rounded, while remaining experts in their field.
    Thank you for being with us today, and you may begin your 
testimony. Thank you.

              STATEMENT OF ANGELA DINE SCHMEISSER

    Ms. DINE SCHMEISSER. Good morning, Chairman Brat, Ranking 
Member Evans, and members of the Committee. Thank you for the 
opportunity to testify today to discuss the skills gap and 
workforce shortage facing U.S. metal casting industry and for 
taking the time and energy to address this challenge.
    As announced, I am Angela Dine Schmeisser, fourth 
generation president of St. Marys Foundry. My great grandfather 
started our manufacturing facility in 1917 in St. Marys, Ohio. 
I care about the state of manufacturing in our country, which 
is why I am here today, and which is why I actively participate 
in the American Foundry Society and serve on the board and as 
president of the Ohio Cast Metals Association.
    Ohio remains among the top three States for manufacturing 
employment in the country, and is also home to over 150 metal 
casting facilities, which is the highest concentration of metal 
casters in the Nation. Metal casting is one of our Nation's 
oldest and most important industries, as castings made from 
iron, steel, or aluminum alloys are used to produce 90 percent 
of manufactured durable goods and nearly all manufacturing 
machinery in the U.S.
    Today, St. Marys Foundry employs 160 associates and 
manufactures iron castings ranging from 500 to 60,000 pounds. 
We melt scrap metal, add necessary alloys, and transform them 
into key components, such as compression cylinders for the 
natural gas pipeline and diffusers for flood control. If you 
have ever used natural gas, I can proudly say one of our fine 
castings has touched your lives.
    As you know, America's labor shortage has reached a record 
high, and as Chairman Brat said, with U.S. unemployment rate 
dropping to an 18-year low of 3.8 percent in May, this is a 
real challenge. If you gather a group of metal casters and ask 
them what their biggest challenge is today, more than 80 
percent will cite the talent shortage of both skilled and 
unskilled workers. This shortage threatens to slow the economy, 
impede manufacturers' ability to deliver on customer demands, 
burn out our workers, and hurt our bottom line through lost 
revenues and lost opportunities.
    At St. Marys Foundry, we have a great working environment 
with competitive wages and benefits, and we are still 
struggling to fill job openings. We are challenged on a number 
of fronts: an aging workforce, local housing shortages, a local 
unemployment rate averaging 2.8 percent, the drug epidemic, and 
less people choosing manufacturing careers due to the 
perception that manufacturing is outdated and legacy work. With 
a combination of all these factors, the shortage of skilled and 
unskilled workers has turned into a perfect storm.
    We currently have 16 openings for a variety of jobs 
specific to our industry, such as casting finishers and mold 
makers. In January, we held a job fair. We promoted the fair on 
our Facebook page, put up billboards along the interstate, and 
encouraged our employees through incentives to promote our job 
openings on social media. Our job fair resulted in 76 
applicants, which we felt was successful. However, out of those 
76 applicants, 46 failed the onsite drug test, and six 
applicants didn't follow up on the next step of the interview 
process. We ended up hiring 24 applicants, and now, primarily 
due to attendance issues, only four of these individuals remain 
employed at the foundry today.
    As you can see from the results of our job fair, finding 
applicants, especially drug-free applicants, is a real 
struggle. Typically, only 25 to 30 percent of perspective 
employees can pass the drug test. Given the fact that we have 
heavy equipment and molten metal in foundries, it is vitally 
important that our workers are drug free.
    Our industry is stepping up and making a commitment to 
actively reach out to introduce the metal casting process to 
local elementary, middle schools, high schools, and other 
venues. Foundries are working with their local labor 
departments, technical colleges, veteran organizations, and 
correctional facilities for referrals. We are providing in-
house training, including apprenticeships for our more 
technical positions, and paying for our associates to go to 
technical classes.
    There is a role for Congress to help facilitate the 
rebuilding of this pipeline of students into manufacturing by 
refocusing resources in vocational and technical programs 
available to high schools and community colleges across the 
country.
    We appreciate the House passing the Strengthening Career 
and Technical Education for the 21st Century Act, also known as 
the Carl Perkins Career and Technical Education bill, which 
provides resources for secondary schools and community colleges 
to teach manufacturing skills and other technical trades. I 
understand that the Senate Health Committee is scheduled to act 
on several Perkins Career and Technical Education bills on June 
20, and I hope that the Senate will vote to move forward on 
bipartisan legislation soon.
    In addition, it would be helpful if Congress would fully 
fund the Perkins Career and Technical Education Act. Increasing 
student participation in work-based learning opportunities 
would go a long way to help increase interest in manufacturing 
job opportunities. I personally believe we should also consider 
connecting these educational programs to drug rehabilitation 
programs and behavioral correction programs for exponential 
success.
    I want to thank you again for the opportunity to be here 
today and share our company and industry workforce challenges, 
and I look forward to your questions.
    Chairman BRAT. Thank you very much for that compelling 
testimony. It was very good.
    And now I would like to yield to our Ranking Member, Mr. 
Evans, for introduction of the final witness.
    Mr. EVANS. Thank you, Mr. Chairman.
    It is my pleasure to introduce Mr. Bryant Greene, owner and 
administrator of Always Best Care, a senior service healthcare 
serving greater Philadelphia. He has a TV and radio show ``Did 
You Know'' connecting people to home, community, and business 
resources. Mr. Bryant is the advisory board over 1199C, an 
ASME-affiliated labor management partnership. They provide 
training to community members, as well as union members, to 
help secure a skilled workforce, something his industry is in 
dire need of acquiring.
    Mr. Greene is a graduate of Philadelphia University where 
he received his MBA.
    Welcome, Mr. Greene.

                   STATEMENT OF BRYANT GREENE

    Mr. GREENE. Thank you.
    Good morning, Chairman Brat, Ranking Member Evans, and 
distinguished members of the Subcommittee. Thank you for 
convening today's hearing on small business workforce 
development needs and how to address the skills gap.
    My name is Bryant Greene, and I am the owner of Always Best 
Care Senior Services in both Philadelphia, Pennsylvania, and 
throughout Delaware. Always Best Care Senior Services is one of 
the Nation's leading providers of nonmedical in-home care, 
assisted living placement services, and skilled home 
healthcare.
    It is an honor for me to be here today to testify before 
this Subcommittee and to share my experience as a private 
sector employer working to address the skills gap in my 
industry.
    As the owner of Always Best Care, I have more than 25 years 
of day-to-day operations experience, which includes staffing 
and workforce development in a healthcare environment. In 
addition to my experience in home healthcare, I currently serve 
on the public policy committee/political action committee board 
of the Pennsylvania Home Care Association, and I am a member of 
the Board of Trustees of the Philadelphia University Legacy 
Board, now acquired by Thomas Jefferson University; the 
Overbrook School for the Blind in Philadelphia; the Magee 
Rehabilitation Hospital Foundation Board of Directors; and the 
board of Philadanco.
    Growing up, I was a part of the family who qualified for 
1199C benefits, which provide eligible union members with 
comprehensive educational services in the healthcare field. As 
a result, my mother, grandmother, and I were able to attend 
college in the same timeframe, giving us a chance to persist 
and succeed in our chosen fields. Without access to this type 
of targeted training, I would not be where I am today.
    Middle-skill jobs like those at Always Best Care Senior 
Services account for 53 percent of United States labor market, 
but only 43 percent of the country's workers are trained at the 
middle-skill level. In healthcare industries, this skills gap 
is even more pronounced.
    Home healthcare is one of the fastest growing industries in 
the U.S. As the labor market has tightened, employers like 
Always Best Care increasingly struggle to identify hires with 
credentials and work experience, both of which are required to 
earn licenses. When there were more workers looking for jobs, 
new entrants earned work experience in helper roles, enabling a 
constant stream of newly licensed workers to meet middle-skill 
demand. With lower levels of unemployment, the pipeline no 
longer exists.
    For small- and middle-sized businesses like Always Best 
Care in particular, the skill care gap can create daunting 
challenges when it comes to hiring and retaining workers.
    Challenges in recruiting workers. First, quality in-home 
care requires the right kind of person. Always Best Care looks 
for kind, compassionate caregivers who treat clients with 
dignity and respect. We provide in-home care services, both 
companion and personal care. We serve patients with 
Alzheimer's, dementia, and cancer. In addition to comfort and 
companionship, we offer dressing, escort transportation, 
errands, bathing and grooming, incontinence care, light 
housekeeping, grocery shopping and meal preparation, laundry, 
and medication reminders.
    Recruiting the right person for this work requires 
significant outreach to our communities, a detailed interview 
process, and a structured onboarding process. Always Best Care 
has over 1,000 caregivers, but we can't do this on our own. We 
have worked with the PA career link, diversity career fairs, 
social organizations, and training programs like 1199C to 
recruit individuals into the field. These community 
partnerships help us identify a diverse set of workers across 
our service area and fill roles in the company.
    I also work with community organizations and reentry 
programs that serve individuals who have been released from 
incarceration. The Pennsylvania Older Adult Protective Services 
Act, OAPSA, requires all home care agencies to complete 
criminal background checks prior to hire. However, a 2015 court 
decision by the Commonwealth of Pennsylvania known as Peake v. 
Commonwealth found lifetime bans on unemployment 
unconstitutional. Although background checks are still 
required, the Department of Aging now recommends that providers 
perform a risk assessment if they choose to hire an individual 
with a prior criminal conviction. While we are awaiting more 
guidance from the State, we believe this is a step in the right 
direction and urge Federal policymakers to consider similar 
measures when it comes to addressing barriers to hiring.
    Challenges training new and incumbent workers. Training new 
workers in home healthcare requires dedication and intensity. 
All of the jobs at Always Best Care call for on-the-job 
training to ensure each client has access to quality, 
personalized individual home care program. Every one of our 
team members and caregivers receive comprehensive training 
before assigned on a care plan. Our workers also achieve 
periodic reviews and upskilling opportunities. To help 
provide--I am about to run out of time, sorry.
    Chairman BRAT. That is okay.
    Mr. GREENE. To help provide greater opportunities for our 
workers, I sit on the advisory board of 1199C Training and 
Upgrading Fund, AFSCME-affiliated labor management partnership. 
I along with several other business leaders work with 1199C 
staff to identify core competencies in home healthcare workers 
and translate into curriculum and training 1199C can deliver, 
complemented by the training my team can deliver workers on the 
job.
    This partnership is vital but takes significant work. 
Currently, 1199C is a funding portion of their work and 
subsidizing the cost of training through Federal Department of 
Labor grants and with funding from Workforce Innovation and 
Opportunity Act. I urge policymakers to continue investments in 
our workforce and apprenticeship systems, as they are crucial 
to supporting the efforts of small business workers to close 
the skills gap.
    Challenges retaining workers. Retaining workers is also a 
tremendous challenge. Much of my workforce consists of part-
time workers, since the average care plan is 3 to 6 hours a 
day. Additionally, because of low Medicaid reimbursement rates, 
home care agencies can only afford to pay $10 to $12 an hour, 
on average. Given the nature of tasks caregivers must perform 
daily, I feel this level of compensation is inadequate, not 
enough, and does not provide an incentive for individuals to 
remain in the field. These workers can easily find higher pay 
in retail and food service industries, which is one of the main 
reasons the industry has a turnover rate of 70 percent.
    Also, the insufficient Medicaid reimbursement rate makes it 
difficult for home care agencies to cover the increasing cost 
of providing care and services to seniors. Within the last 6 
months, additional background check and child abuse clearance 
requirements for home healthcare workers have been handed down 
by the State of Pennsylvania. While these background checks are 
undeniably important, the cost of hiring just one direct care 
worker is projected to increase by $43 in 2019, yet Medicaid 
reimbursement rates are set to stay the same.
    In conclusion, we can all agree that home healthcare 
workers are crucial to providing high quality to some of the 
most vulnerable members of our society. I am here today to tell 
you that our industry is facing significant hurdles when it 
comes to building and maintaining a strong pipeline of workers, 
and there is no doubt in my mind that this will adversely 
affect millions of Americans if not corrected.
    I ask that the Federal policymakers work to help provide 
education and training opportunities to individuals from all 
backgrounds who are likely to find and retain gainful 
employment. We cannot afford to miss this opportunity too close 
to our Nation's growing skills gap.
    Thank you.
    Chairman BRAT. Great. Thank you very much, Mr. Greene, for 
your testimony.
    All four of you together put together, I don't want to say 
a depressing package, but a set of challenges right from 
mobility through, Ms. Dine Schmeisser, I think you gave us 
quite a list. And I will just go over that and just kind of at 
a gut feel, if you each just want, we will start with Mr. Hitt, 
and if you want to move down.
    You started off with 76 applicants, and then the whole 
panel brought up showing up on time, quitting, 70 percent 
turnover, the stigma of going to college versus getting 
technical skills in K to 12, people being skill ready, huge 
dropoff due to the drug issue, labor mobility. And so you are 
at the Federal Government right now, and in some ways, we can 
be very helpful on certain policy levers and on others it is 
very blunt.
    So like on education, K to 12, we probably control 10 
percent of the funding, et cetera, right, and then State and 
local is 90 percent. But we do put mandates down, right? And we 
lifted mandates last year. And so the only required testing 
going forward under last year's education bill for K to 12 now 
is going to be math and reading, et cetera. And schools are 
free to do and have a little more flexibility.
    So I am curious to hear your--if we are spending $13,000 a 
year per kid for 13 years, what can we do to get folks ready 
for the labor market in a better way K to 12? And then higher 
ed, you gave some hints as to where Perkins loans and those 
kind of things, how can we shift things. And then these are a 
lot of band-aid programs, and Mr. Hitt is kind of getting at 
the bigger package of labor mobility, making sure we are 
getting people to the right labor markets in the first place. 
But there is a daunting task, right, when you go from 76 apps 
to 46 drugs to showing up on time, setting the alarm clock in 
the morning, work ethic is involved. And this is common, right, 
this is what we hear, and that is why we are having this 
hearing. It is a daunting challenge.
    And so, Mr. Hitt, the Federal Government--I mean, and don't 
limit yourself to what the Federal Government can do, but where 
would you--right, in economics you do efficiency and you aim 
for the low hanging fruit first. Where would you aim our 
resources to get the biggest bang for the buck in terms of 
improving this situation?
    Mr. HITT. Well, Chairman Brat, for me, ultimately, the 
number of people in the country feeling disenfranchised because 
of the labor issues that we have go to the American Dream. The 
American Dream is the belief that your children will do better 
than you. They will always be set up to do better than you. And 
when you lose that vision of that American Dream, and people 
think that they can't possibly do better than their parents 
did, and their parents can't do better, aren't mobile enough to 
move to a higher paying job in a better spot, then I think you 
do get this inertia that we have in the country right now. And 
in middle America, many people are stuck.
    From my perspective, I would be incentivizing big business 
to get these people moved. And that, to me, are tax credits, 
tax breaks, maybe on a multiple--you know, to go ahead and move 
people. If you think about it right now, there are people in 
the country who, you know, their houses are still upsidedown in 
pockets of the country. You know, so the idea of moving from 
maybe Youngstown to Seattle, it is untenable because your house 
is still $50,000 upsidedown and you are working two jobs. So 
these are huge problems, I think.
    I also think, to the problem that Ms. Dime Schmeisser has, 
I think that you are really talking about great education and 
market at the education level K through 12. We need to change 
the way we educate people, and we need to let them see the 
future of what can happen in our job markets. We are rolling 
through a very digitized economy right now, and it is going to 
move far faster than we ever saw the economy moved through the 
industrial revolution. It is going to move in 15 years where 
the industrial revolution took us 35. It is going to move 
quickly. So we want to let them know that through spot 
education that there are great opportunities coming for them in 
other areas in other industries.
    So that is where I would start, because I think when you 
have 46 applicants where over 50 percent failing a drug test, 
you have a far bigger problem, and to me that goes right back 
to the American Dream. They need to believe that there is great 
hope and that their future will be better and better. It is in 
our DNA. It is why we are Americans. It is why we originally 
came here. We all came here from somewhere, right? Over 200 
years ago. It is in our DNA to move. And I think I made the 
point in my testimony, in my written testimony that we were 
moving at rates of 22 percent. That is almost one in four 
Americans every year moved. It is almost like that sort of gold 
rush dream, you know, I have got to move for a better 
opportunity. The impacts of this are huge.
    Think about a recession. When you have a recession and you 
are in it, you might be in a recession for 3 years, but when 
people are moving to find that better opportunity, they are 
picking up GDP by going where jobs are instead of just staying 
stuck in that spot. So you actually have--recessions are 
actually balanced out when people are moving. So, to me, 
mobility is the number one issue we have. It is not talked 
about enough, and I would like to see it be at the forefront, 
and I would like to see these solutions start to be tested and 
start to be implemented so we can actually get these people 
moving again and get them in better spots and better jobs.
    Chairman BRAT. Great. Thank you much.
    We will circle around to everyone else on the panel with 
that question coming up too, but I want to yield to the Ranking 
Member.
    Dwight, why don't you kick it off.
    Mr. EVANS. Thank you, Mr. Chairman.
    Mr. Hitt, I want to go to something that this Committee was 
conducting a discussion last week and see if you can reconcile 
this balance. We just held a hearing on millennium 
entrepreneurship. We talked about the gig economy, and we found 
that many are choosing to work for themselves for many reasons. 
How do we balance the need for encouraging more startup 
activity with ensuring the next generation of workers also 
consider the skilled workforce?
    Mr. HITT. Yes, I think it is a tough one. You know, we went 
through--you know, unfortunately, we went through a financial 
crisis in 2006, 2007 and 2008, you know, and millennials were 
caught up. I hate to call them millennials, they are just, you 
know, the next generation, young, hardworking Americans. You 
know, they were caught up in a time that was tough for them. 
Many of them went through foreclosures on their homes. Many of 
them saw their parents lose their jobs. Many of them watched 
some big business get sort of taken out and taken out to 
pasture a little bit for failures that, you know, they had, and 
so they lost some of their faith in big business. So the idea 
of working for yourself is actually a great thing for them. I 
think it is a natural reaction, human nature to feel that way, 
right?
    So I think what we need to be doing are simple things to 
bring them back in to big business to help train them so that 
they are actually in a better position to go out and take 
advantage of the gig economy. You know, part of that is making 
sure that we are talking about all the wonderful things that 
are happening in big business, Congressman, you know, that 99 
percent of big business and small business, you know, they are 
wonderful actors. You know, they are conscious, you know, about 
their capital's pursuits. And so I would like to see more of 
that and more discussion of that on broader things.
    And then I think from the perspective of startup activity, 
you know, we didn't incentivize investment and startup 
activity. I mean, we are involved in that. You know, we are 
involved in the venture world in a very big way. And, you know, 
from our perspective, you know, there is great opportunity in 
that world, and we want to attract millennials into that space 
as well. So we have--sort of have both these spaces that we 
want to, you know, be incentivizing them to jump in and get 
into the labor force.
    Mr. EVANS. Mr. Greene, me--can you speak about the 
important training programs with a chronic unemployed that can 
help aid the growth of our economy?
    Mr. GREENE. So the stigma associated with technical 
training in place of a 4-year degree will be a difficult one to 
erase in today's youth. However, the growing cost of 
postsecondary education, young adults are beginning to 
recognize that the technical careers can play in reducing or 
even preventing student loan debt and starting them on an 
earlier path to financial independence. Successful training 
programs need to take advantage of their graduates and alumni 
and use peer reviews to entice other young adults into the 
field. Students do not respond well to schools and counselors 
pushing them toward technical training, but they appreciate the 
experience of their peers in their generation who have taken 
this option and can prove that in a promising career.
    I just think that, you know, these organizations that 
exist, you have to make them more available, make them more 
known. The community partnerships, the not-for-profits, all of 
that out there, you just have to evangelize it better amongst, 
I guess, the growing workforce.
    Mr. EVANS. You used an interesting word. You said 
``evangelize.'' You think we are at that point that we have to 
do that?
    Mr. GREENE. We have to, and we have to--I say that because, 
you know, you look at how we are communicating as a whole. I 
mean, you know, how are we--the traditional putting an ad in 
the paper for programs or jobs is just, in my opinion, obsolete 
amongst the young folks. They want to see things, or they look 
for jobs on Craigslist, at least in my workforce, you know, 
which is highly part time. So when I say evangelize, yes, of 
course, evangelize on social media, on radio, TV. You know, 
every time you turn on the TV now, you hear one or more 
programs, but sometimes to the young people that translates to 
debt.
    So I think they have to see the reward to really with the--
you can't get instant gratification all the time in this 
workforce. You have to put in the time, and I think that is the 
balance of what millennials don't see. They want instant 
gratification, and as you asked the question about 
entrepreneurship, it is the freedom--as I talk to them a lot, a 
lot of times I am connecting young people--in my season, I am 
connecting young people a lot of times to older folks, which is 
kind of an intergenerational vibe, if you will. But when you 
talk to young people and you listen to them, they want the 
freedom of the entrepreneur spirit as opposed to routine. So I 
guess it is nonconformity, and bring them into the workforce to 
know that they have value.
    Mr. EVANS. I yield back the balance of my time. Thank you, 
Mr. Chairman.
    Chairman BRAT. Thank you, Mr. Evans.
    I would like to now yield to my good friend from South 
Carolina, Ralph Norman.
    Mr. NORMAN. Thank you, Chairman Brat.
    I want to thank the panel for taking the time to come 
today. It is valuable to hear your comments.
    I am a contractor and, you know, the challenge that I see 
for hiring people is if you are 19, have never worked, it is 
kind of hard to get them in the routine. That is a society 
problem to have people work as they come up, but that is an 
issue now.
    But, Mr. McCreight, we have in our area colleges, technical 
schools. And do you find businesses partnering with them to, 
one, let the millennials know that a welder, a framer, a truck 
driver with a CDL can make 80 to--on up thousand a year? Have 
you all partnered with them? And if not, how do we spur that 
on?
    Mr. MCCREIGHT. Yes, we definitely have partnered with them. 
I can remember, you know, maybe 15, 20 years ago, if you had 
openings, you would just send the openings over to the 
community college and then they would send you some applicants, 
and that was how you would hire from them. And it is not like 
that anymore, because everybody wants to access that pool that 
is there. And so it is almost a cradle-to-career kind of 
approach. You have got to get in there early in high school.
    I think there is a stigma, maybe I will speak to the 
manufacturing piece, that it is not cool to be in 
manufacturing. But you are exactly right, there are so many 
great jobs that you don't have to go to college for. And I know 
States have--in our State of Tennessee, we have promoted that. 
I know the other southeast States have promoted that because of 
the influx of the automotive jobs that we have seen over really 
the last 25 or 30 years. But we have got to do a better job of 
making it cool to be in manufacturing, and you don't have to go 
to--you know, even go to community college. You can literally 
be an apprentice right out of high school, come in and have a 
great job and have a great career.
    Mr. NORMAN. I just got off a panel with opioid addictions. 
What--and this is to not any particular person, what is your 
take on beginning to solve that? And how would you--as a 
business person, how would you start the ball to try to unravel 
that issue?
    Mr. Hitt, I will start with you.
    Mr. HITT. Well, I think we need programs that, you know, 
obviously add a mental health element to the hiring and 
training issues that we have. I mean, clearly, you know where I 
stand on this. I mean, you know, you fall into these huge 
crises in our country when people are feeling disenfranchised. 
There is a reason we have an opioid conflict. It just didn't 
pop up. You know, it comes from a lack of opportunity and a 
feeling of disenfranchisement. And I think that there is some 
failed leadership in our business communities. There is 
probably some failed leadership, you know, overall in the 
country in this entire area.
    You can't just have people on the coasts being wonderfully 
prosperous and people around middle America not being 
prosperous. And so I do think this come down to programs that, 
again, move people where the opportunity is and create 
incentives for opportunities where they do live so we can 
create better jobs for them there. Then you can work on the 
training element of it, and through the training element of it, 
certainly mental health has to be a part of that.
    We don't do a great job in this country in the mental 
health area. It is an area that we should be focusing on more. 
If anybody in the room has any experience in it, you know, with 
children or family members, you probably understand the 
frustration, you know, of trying to get the appropriate help 
for people that are, you know, addicted to something or 
depressed or have anxiety disorders. You know, these are big 
issues, you know, and they are not solved with a snap of the 
finger, so real leadership has to come.
    And I think it comes back to incentivizing business to step 
in and work with, you know, both local and State governments 
and the Federal Government to help solve these problems. Get 
people in jobs. The dignity and respect that comes with a job, 
you know, the ability to go home and actually enjoy your 
weekend with your family, you know, instead of going to work 
the second or third job to try to make ends meet where you are 
and you become critically underemployed. I mean, it is a very 
vicious circle, you know, that is there. So that is how I would 
address it, Congressman.
    Mr. NORMAN. Anybody else want to take a pop at that?
    Mr. GREENE. Sure. I deal with recovering addicts all the 
time, and so, I guess, again, what we have started to do, at 
least with the reentry programs where people have been recently 
released from incarceration, we try to connect those folks with 
the folks that are currently going through a stage in their 
addiction. Addressing it first. I guess, you know, a lot of 
times in the culture people, have to reach their bottom, but if 
you are trying to address it positively, I think you just have 
to keep in tune with the outreach, understand why, you know, 
different folks are getting high or seeking to get high, and 
then really connecting them to the multiple choice of what 
happens if you continue to get high.
    There are all types of programs out there, and the ones 
that are successful are the ones that have people that have 
joined that haven't been forced by their parole officer or by a 
judge or by a priest or by a family member. The most successful 
programs that I work with are the ones that people have hit 
rock bottom and want to make a change.
    And so then when you talk to people that are currently 
using, at least it has been my experience, you just continue to 
encourage them to make better choices, and give them better 
options out there, whether that be in entertainment, 
horticulture, art, different things and different hobbies.
    A lot of times if we talk to, particularly young people, 
they don't feel that they have a lot of options. There is a lot 
of depression, and I know it personally because I raised a 
child with depression. So, you know, you really have to really 
have this honest assessment and you have to deal with it. You 
know, you have to deal with it directly.
    And again, I guess what we are trying to do, and in a lot 
of ways we have reached some success, is that we connect folks 
that have gone through addiction and are on the other side of 
it, and we continue to talk to the people that are going 
through it currently.
    Mr. NORMAN. Great. I am out of time. Thank you so much.
    Chairman BRAT. Thank you, Ralph.
    I would like to yield to Stephanie Murphy of Florida.
    Mrs. MURPHY. Thank you all for being here. I really 
appreciate it.
    And, Mr. McCreight, I appreciate you showing us a sample of 
how virtual reality can be integrated for training. I represent 
a district in Orlando that is known for being the hub of 
modeling, simulation, and training, and there are a number of 
companies there that build those machines just--or technology 
just like the one that you showed to train people in the 
healthcare space, for military purposes, and a variety of other 
jobs. And so I think it is an exciting space that we are 
probably likely to see more of as we look at workforce 
training.
    But my question, you know, we have held a similar hearing 
here on this Committee where we discussed the possible causes 
of this persistent skill gap problem, labor force job gap 
issue, and one idea is that schools might not be adequately 
preparing students with the exact skills that they need for 
specific jobs. And on the other side, it appears that there is 
a guessing game that students have to play as far as what jobs 
might exist. So as they try to figure out what to go to school 
for, they are not quite sure what the demand signal on the 
other side is.
    And so it is suggested there is a communications gap 
between higher ed and industry or educational institutions and 
industry. And, in fact, in 2012, a McKinsey report found that 
72 percent of higher education institutions believe that 
graduates are fully prepared for the workforce, and only 42 
percent of employers agree.
    So what kinds of things do you think we can do to close 
this gap, better prepare our students, also give them a better 
sense of what the demand signals are from industry? Kind of 
open question.
    Mr. MCCREIGHT. I will start. I think that, you know, there 
is, to me, there is two skills gaps. There is the technical 
skills gap, which I showed on the forklift of how we would 
address that, and then we also see what we call the soft skill 
gap or basic skills, and it is things that you just would not 
think you would have to teach someone, which is showing up for 
work on time and not walking off a job, or if you are going to 
be out calling in advance, and things that probable many of us 
were just inherent in maybe the way we were raised or a 
culture. And, you know, so we find that we are having to teach 
that, which is really surprising. As an employer, you wouldn't 
think you would have to do that. And I do think that the K 
through 12 could address that in some form or manner, and 
whether it is job readiness or how they would do that, rather 
than the employers.
    I think probably most of us have stories of that that we 
just can't believe that these people don't understand kind of 
the basic 101 of working.
    Mr. GREENE. I think that public schools can do a better job 
of discussing postsecondary training options, but the better 
solution is creating more opportunity for public and private 
efforts. Schools should have relationships with local training 
institutions that can talk about what students can expect in 
their programs and what kind of positions and salaries they can 
attain with training.
    We are going to be participating with a program, as I sit 
here and think about it, with 1199C, again, with high school 
students. And so getting them more involved or at least, you 
know, 4 days out of a workweek. And again, you know, in my--
again, in my workspace in terms of workers, at least caregivers 
are in a situation where they are in a lot of ways highly 
unsupervised.
    But when we talk about soft skills too, I think another 
thing that we talk about, again, with young people, a lot of 
times with the seniors, is just general courtesy. A good 
morning, good afternoon. Putting down the cell phones. You 
know, we have almost gotten to a culture, at least in my place, 
where the cell phones are a big no-no in the workplace because 
people can't live without them. But when you talk to young 
people, you know, we try to tell them we don't want to talk to 
the top of your head, we want to talk to your face. And it is 
reinforced in our workforce because, again, we are connecting a 
lot of times this intergenerational vibe where we are putting a 
young person into a senior's home.
    And for me, the struggle is twofold. One, there are not a 
lot of people standing in a long line to be a caregiver to help 
people for the low salary that we can offer because of the 
Medicaid rate. But the other part of it is too, a lot of the 
young people are, I don't want to say entitled so much as 
uninformed. And the attention span of trying to keep them 
sometimes engaged, because that is--it is not my only 
workforce, I supervise probably four generations of folk. And 
so really, again, just having diversity and inclusion, but soft 
skills training, more intern programs, you know, and really 
making it more attractive for employers like myself to get 
involved with kind of training programs, creating some type of 
benefit for that.
    Mrs. MURPHY. Thank you. And I yield back.
    Chairman BRAT. All right. I get now to yield to my boss, 
the Chairman of the full Committee, Steve Chabot, and thank you 
very much.
    Mr. CHABOT. Thank you very much, Mr. Chairman.
    And I apologize if any of the questions I ask have already 
been asked. I had another hearing going on, which I have to go 
back to, but Small Business Committee is the most important 
committee in Congress so those others can wait. That is my 
attitude. I know that is the others as well.
    The first question I would like to ask is kind of relative 
to the education system. It seems like obviously, you know, 
parents, at least a lot of us, perhaps have encouraged our 
young folks over the years that a 4-year college is absolutely 
critical nowadays. But in reality, obviously, there is a lot of 
jobs and opportunities out there that don't require a 4-year 
degree, you know, a 2-year community college degree, or 
vocational degree, or a technical certification of some sort or 
another.
    And if you could, whoever would like to, just kind of 
address that issue and perhaps how we ought to look at that 
either differently or more thoughtfully or just kind of as a 
society. Are we pushing too many of our young people into 4-
year liberal arts degrees when perhaps there are other 
alternatives to that? Anybody like to address that?
    Ms. DINE SCHMEISSER. I am going to go ahead and jump in so 
I have a chance to respond. I think a lot of it is about what 
the panel has said today, redefining the American Dream. What 
does it mean to have it all? Because I think have it all now 
can be a home that you can pay for and children you can clothe 
and food you can buy. And there is a housing shortage, but the 
stigma does start with how you are raised, and I think business 
can do a lot about that.
    If you put yourself out in the community and you connect, 
and--like when we got business of the year, I made sure we 
talked about that a lot, so that that is something they can 
talk about around the table, and say, hey, I wonder what they 
are doing down there, and make it seem--make people realize 
that there is opportunities that aren't 4-year colleges.
    In the educational system. I just had a son graduate. No 
one talked to him about any other choices other than college, 
and at graduation, the kids that didn't go to college, they 
didn't even announce what their future plans were going to be. 
And I think we could really glorify that and make it seem 
better by the fact that if the Federal Government thinks it is 
important enough to increase Pell grants, or technical colleges 
or vocational schools get more money, then it must be a really 
big need.
    And I think when there is a lot said about millennials that 
is not kind, but I do think they go where they are needed. They 
feel a draw to being needed and being part of a bigger picture 
and being part of something that is successful. And I know when 
we wanted to get--when we want more employees, I realized I had 
to reintroduce ourselves to the community, because the image we 
had was old and dated. And so what we did was ask the 
employees, what is important to you? What is important to your 
kids? Where should we be?
    We pay our employees to volunteer in the community. People 
see that and they say, wow, I would like to be part of that. 
And I think that same energy can be put towards vocational 
schools and technical colleges or, you know, really on-the-job 
training is huge. There is nothing that can be offered at a 
vocational school that we need, other than like forklift 
training. Everything we teach is on the job. But I would love 
it if somebody in K through 12 would have a life skills class 
so they know how to balance a checkbook or get to work on time 
and realize they have to bring a lunch with them. No one is 
going to give them lunch at work.
    There is so many things that they really don't know, and I 
can say that without, you know, being smug because my son is 
one of them. The first day he showed up for summer internship, 
he didn't understand why there wasn't a lunch for him just 
because everywhere else he had worked had been so generous and 
things like that. So I think there is a lot of things they 
don't know.
    And I agree, it is not because they are entitled, they are 
just completely uninformed. And I think a lot of it comes from 
the support they get at home, what they see both--maybe both 
parents are super busy, and they don't have time to show them 
that. So as business leaders and elected officials, we have to 
show them what is important in life and what matters and what 
will get them recognition.
    Mr. CHABOT. Thank you very much.
    Mr. Chairman, I will yield back my time. Thank you.
    Chairman BRAT. Well, I think we couldn't have had a better 
panel today. I appreciate just--we covered, I think, the full 
spectrum of all the issues. And the closing, that was fantastic 
testimony you just gave that I think will give us plenty to 
think about to move forward on. And that is why we do hold 
these panels. We do seek your input. I am from the business 
community, and we are going to prepare another round and zoom 
in until we hit the target and solve the problem.
    And so I want to again thank all of our panelists today for 
coming in and sharing your time and expertise.
    I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record. Without objection, so ordered.
    This hearing is now adjourned. And thank you again very 
much.
    [Whereupon, at 11:07 a.m., the subcommittee was adjourned.]
    
    
               A P P E N D I X
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               


                <all>
</pre></body></html>
